IN THE SUPREME COURT OF THE UNITED STATES
_________________
No. 19–841
_________________
UNITED STATES HOUSE OF REPRESENTATIVES, Petitioner,
v.
STATE OF TEXAS, ET AL., Respondents,
and
UNITED STATES OF AMERICA, ET AL., Respondents.
_________________
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT
_________________

OPPOSITION TO MOTION TO EXTEND TIME TO FILE RESPONSES TO PETITIONS FOR WRITS OF
CERTIORARI
_________________
Petitioner the United States House of Representatives opposes the individual and state
respondents’ motion for an extension of time to file their briefs in opposition to the House’s
petition for a writ of certiorari.
1. For all the reasons stated in the House’s motion to expedite consideration of its petition
for a writ of certiorari, filed on January 3, 2020, the swift resolution of this case is paramount. The
Fifth Circuit’s decision threatens the orderly operation of the healthcare sector and casts doubt
over whether millions of individuals will continue to be able to afford vitally important care. As
the federal government itself argued below, the continuing uncertainty about the ACA’s lawfulness
will seriously damage the healthcare sector.

1

Although the Court has denied the House’s request to expedite certiorari consideration, the
Court could consider the certiorari petition in the ordinary course and still grant certiorari (should
it decide to do so) in time to hear and decide the case this Term. Under this Court’s Rules, the
respondents’ briefs in opposition are due on February 3, absent any extensions. If the oppositions
are filed on that day, the House will—without prejudice to its right to file a reply brief—waive the
14-day waiting period, provided by Supreme Court Rule 15.5, between the filing of a brief in
opposition and distribution of the petition and other materials to the Court. As a result, if the
respondents file their briefs in opposition in the normal course under Supreme Court Rule 15.3,
the Court could consider the petition at its conference on February 21, 2020, and, should it grant
certiorari, order a merits briefing schedule that would permit argument in the case to occur this
Term.
The individual and state respondents’ requested extension, however, would not permit the
Court to consider whether to grant certiorari until April 2020 at the earliest. At that point, it will
be too late, even under an expedited merits briefing schedule, for the Court to hear and decide the
case this Term. Granting the requested extension would therefore ensure that uncertainty about
the ACA’s status will endure at least into late 2020, likely through next year’s open enrollment
period. The individual and state respondents have provided no justification for extending the
crippling uncertainty now afflicting the healthcare sector for so long. 1

1

Respondents’ suggestion that the extension is warranted to align the House’s petition with “any
cross-petitions” they may file lacks merit. As the House pointed out in its reply in support of its
motion to expedite, “it seems certain that any such cross-petition would argue that the Fifth Circuit
should have affirmed the district court’s severability decision striking down the entirety of the
Act.” House Mot. to Expedite Reply 10. Respondents have not denied that proposition. Because
the House’s petition places the correctness of the Fifth Circuit’s severability decision in issue, this
Court need not await a possible cross-petition on severability before deciding whether to grant the
House’s petition.
2

2. For the same reasons, the House notes that it also opposes any extension of time for the
United States or any other party to file a brief in opposition. The United States’s brief in opposition
is also due on February 3, 2020. To the extent any party seeks an extension of time to file a brief
in opposition, the House respectfully requests that the Court provide it an opportunity to file a
formal opposition before the Court acts on that extension request.
Respectfully submitted,

Donald B. Verrilli, Jr.
Elaine J. Goldenberg
Ginger D. Anders
Jonathan S. Meltzer
Rachel G. Miller-Ziegler
Jacobus van der Ven *
MUNGER, TOLLES & OLSON LLP
1155 F Street N.W., 7th Floor
Washington, D.C. 20004-1361
Tel: (202) 220-1100
Fax: (202) 220-2300

/s/ Douglas N. Letter
Douglas N. Letter
General Counsel
Counsel of Record
Adam A. Grogg
Assistant General Counsel
OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
219 Cannon House Office Building
Washington, D.C. 20515
Douglas.Letter@mail.house.gov
(202) 225-9700 (telephone)

Elizabeth B. Wydra
Brianne J. Gorod
Ashwin P. Phatak
CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18th Street N.W., Suite 501
Washington, D.C. 20036-2513
Tel: (202) 296-6889

Counsel for the U.S. House of Representatives
January 22, 2020
*

Admitted in Maine and practicing law in the District of Columbia pending admission to the D.C. Bar under the
supervision of bar members pursuant to D.C. Court of Appeals Rule 49(c)(8).

3

